May 11, 2020
VIA ELECTRONIC FILING
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re: Heon-Cheol Chi v. United States, No. 19-1000
Dear Mr. Harris:
Pursuant to Rule 15.5 of the Rules of the Supreme Court, petitioner waives the 14-day
waiting period for distribution of his petition for a writ of certiorari.
Sincerely,

BENJAMIN L. COLEMAN
COLEMAN & BALOGH LLP
Counsel for Petitioner

cc: The Solicitor General

